OCTOBER TERM 2020
No. 20-6500
_______________________________
IN THE SUPREME COURT OF THE UNITED STATES
_______________________________
ALFRED BOURGEOIS,
Petitioner,
v.
T.J. WATSON, Warden, USP-Terre Haute, and UNITED STATES OF AMERICA,
Respondents.
______________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit
______________________________
APPLICATION FOR STAY OF EXECUTION
______________________________
--- CAPITAL CASE --EXECUTION SCHEDULED FOR DECEMBER 11, 2020
Victor J. Abreu*
Katherine Thompson
Peter Williams
Assistant Federal Defenders
Federal Community Defender Office
for the Eastern District of Pennsylvania
601 Walnut Street, Suite 545 West
Philadelphia, PA 19106
(215) 928-0520
victor_abreu@fd.org
*Counsel of record for Petitioner, and
Member of the Bar of the Supreme Court

To the Honorable Amy Coney Barrett, Associate Justice of the Supreme Court
of the United States and Circuit Justice for the Seventh Circuit:
Petitioner Alfred Bourgeois is an intellectually disabled federal prisoner. On
November 20, 2020, the United States scheduled his execution for December 11,
2020. Mr. Bourgeois respectfully requests a stay of execution pending consideration
and disposition of his Petition for a Writ of Certiorari, which is being filed together
with this Application.
The Petition raises two questions the Court has not previously addressed: does
the plain language of the Federal Death Penalty Act (“FDPA”) prohibit the carrying
out of an execution against a federal prisoner, like Mr. Bourgeois, who is
intellectually disabled under current standards? If so, does 28 U.S.C. § 2241 provide
a remedy for such a prisoner even though a court had previously denied his claim
using now rejected judge-made criteria instead of clinically accepted diagnostic
standards? For the reasons set forth below and in the Petition, the answer to both
questions is yes.
This Court should stay Petitioner’s execution to address these novel and
important questions of federal law.
STANDARDS FOR A STAY OF EXECUTION
Mr. Bourgeois respectfully requests that this Court stay his execution,
pursuant to Supreme Court Rule 23 and 28 U.S.C. § 2101(f), pending consideration

1

of his concurrently filed Petition for a Writ of Certiorari. See Barefoot v. Estelle, 463
U.S. 880, 889 (1983) (“Approving the execution of a defendant before his [petition]
is decided on the merits would clearly be improper.”); see also Lonchar v. Thomas,
517 U.S. 314, 320 (1996) (recognizing that court may stay execution if needed to
resolve issues raised in initial petition).
The standards for granting a stay of execution are well established and require
weighing the prisoner’s likelihood of success on the merits, the extent to which the
prisoner unnecessarily delayed his claims, the relative harm to the parties, and the
public interest. See Hill v. McDonough, 547 U.S. 573, 584 (2006); Nelson v.
Campbell, 541 U.S. 637, 649–50 (2004); Barefoot, 463 U.S. at 895. All these factors
weigh strongly in Mr. Bourgeois’s favor here.
PETITIONER SHOULD BE GRANTED A STAY OF EXECUTION
1.

Petitioner is likely to succeed on the merits.

As set forth in his Petition and as the district court found, Mr. Bourgeois
makes a “strong showing,” PA22–25,1 that he is intellectually disabled as defined
by “current medical standards,” Moore v. Texas, 137 S. Ct. 1039, 1049 (2017). The
plain language of the FDPA bars the government from “carr[ying] out” a death

1

Petitioner submitted an Appendix simultaneously with his Petition for Writ of
Certiorari. Petitioner’s Appendix shall be cited as “PA” followed by the relevant
page number.
2

sentence “upon a person who is mentally retarded.” 18 U.S.C. § 3596(c). The
Seventh Circuit nonetheless deemed Mr. Bourgeois’s intellectual disability under
current legal and diagnostic standards to be irrelevant as a matter of law. PA15.
Because the plain language, common law history, and legislative history of the
FDPA preclude the Seventh Circuit’s blanket ruling, Petitioner is likely to succeed
on the merits of the first question presented. See Cert. Pet. at 20–32.
Further, the writ of habeas corpus provides a remedy to enforce the FDPA’s
absolute prohibition on carrying out executions of intellectually disabled federal
prisoners. Habeas corpus has always been available to challenge the legality of the
implementation, as opposed to the imposition, of a sentence. Congress did not design
28 U.S.C. § 2255 to accommodate such challenges, and the circumstances of this
case demonstrate that a prisoner’s intellectual disability under current standards can
never be litigated under § 2255 where his intellectual disability was previously
litigated under since-rejected standards—including the judge-made, non-clinical
standards under which Petitioner’s claim was rejected during § 2255 proceedings.
Section 2255 is therefore inadequate and ineffective to effectuate the rights
conferred by the FDPA. See Cert. Pet. at 32–40.
Under these circumstances, Petitioner’s request to this Court to grant the
petition, vacate the Seventh Circuit’s judgment, and remand to the district court to
resolve the merits of his FDPA claim is likely to be granted.

3

2.

Petitioner has been timely and diligent in this litigation.

On July 25, 2019, the United States scheduled Mr. Bourgeois’s execution for
January 13, 2020. Mr. Bourgeois promptly filed, on August 15, 2019, a § 2241
petition in the Southern District of Indiana challenging the implementation of his
sentence under the FDPA. Mr. Bourgeois’s execution date was subsequently stayed
by the United States District Court for the District of Columbia in consolidated lethal
injection litigation.
On March 10, 2020, the § 2241 court stayed Mr. Bourgeois’s execution,
finding that Mr. Bourgeois made a “strong showing” that he is intellectually disabled
under current diagnostic standards and that a hearing should be held to consider the
evidence. PA22–25.
On October 6, 2020, the Seventh Circuit vacated the stay and ordered the
petition dismissed. PA15. Mr. Bourgeois filed a timely petition for en banc
reargument, and the court ordered a response from the Government. On November
20, 2020, while the rehearing petition was still pending, and although the Seventh
Circuit had yet to issue its mandate, the Government set Mr. Bourgeois’s execution
for December 11, 2020.
On December 1, 2020, the Seventh Circuit denied rehearing. The instant
Application for Stay of Execution and Petition for Writ of Certiorari follow one day
later.

4

In short, Mr. Bourgeois has been timely and diligent in pursuing this challenge
to the implementation of his sentence under § 3596, because such challenges are
appropriately brought “[w]hen the sentence is to be implemented.” 18 U.S.C.
§ 3596(a). Moreover, even before the Government first scheduled his execution, Mr.
Bourgeois diligently sought relief in § 2255 proceedings under then-extant
standards. And after this Court in Moore, 137 S. Ct. at 1044, rejected Texas courts’
approach to deciding intellectual disability claims, Mr. Bourgeois sought leave from
the Fifth Circuit to again have his intellectual disability considered in light of that
precedent. The Fifth Circuit denied his request. See Bourgeois v. United States, No.
18-40270 (5th Cir.); PA262–64.
Mr. Bourgeois’s imminent execution date is not on account of any delay or
lack of diligence on his part. Rather, the Government has caused the severe time
constraints here by scheduling the execution while the district court’s stay of
execution was still in effect and before Mr. Bourgeois could seek relief from this
Court, and by setting the execution date only three weeks out, on December 11,
2020.
The Government is likely to invoke the public’s interest in the finality of
criminal judgments, including death sentences. But the Government’s own actions
disserve that interest. The Bureau of Prisons went without an established execution
method from 2011 until 2019—the last six of years of which the Government spent

5

in the “final phases of finalizing the protocol.” See Defendants’ Status Report of July
3, 2013, at 1, Roane v. Gonzalez, No. 1:05-cv-02337-TSC (D.D.C. July 3, 2013),
ECF No. 323. That delay is not attributable to Mr. Bourgeois in particular or to the
actions of anti-death penalty activists more generally. See Glossip v. Gross, 576 U.S.
863, 870 (2015). Indeed, during the eight years in which the Government lacked a
viable protocol, a total of seventeen states carried out 255 executions by lethal
injection. 2 If the Government were sincere in its view that the need for prompt
executions overrides other stay factors, it would have acted with at least some
semblance of alacrity over the years. See Osorio-Martinez v. Attorney Gen. of the
U.S., 893 F.3d 153, 179 (3d Cir. 2018) (“[T]he fact that the Government has not—
until now—sought to remove SIJ [Special Immigration Juvenile] applicants, much
less designees, undermines any urgency surrounding Petitioners’ removal.”).
Nothing justifies any sudden need to execute Mr. Bourgeois now.
3.

Petitioner will be irreparably harmed if a stay is not granted.

Because Mr. Bourgeois has a substantial likelihood of success in showing that
he is intellectually disabled, the harm of denying a stay is manifest and absolute. See

2

See Death Penalty Information Center, Execution Database,
https://deathpenaltyinfo.org/executions/execution-database. The database reveals a
total of 258 executions between March 4, 2011 (the date on which the Attorney
General publicly announced a lack of execution drugs), and July 25, 2019 (the date
on which the Attorney General announced the new protocol). Of those 258
executions, 255 were carried by lethal injection and three by electrocution.
6

Wainwright v. Booker, 473 U.S. 935, 935 n.1 (1985) (recognizing that irreparable
injury “is necessarily present in capital cases”). By contrast, the Government has no
interest whatsoever in conducting an unlawful execution or an execution where, as
here, the prisoner has made a “strong showing” that he is intellectually disabled
under current standards. PA22–25. The balance of harms weighs strongly in favor
of a stay.
4.

The public interest weighs in favor of granting a stay.

The public interest is reflected by Congress’s decision to erect an absolute bar
on the execution of intellectually disabled persons. This interest would best be
served by enforcing the plain language of the FDPA and by recognizing that habeas
corpus is the appropriate vehicle for Mr. Bourgeois’s claim.

7

FOR THE FOREGOING REASONS, and those set forth in his Petition for a
Writ of Certiorari, Petitioner respectfully requests that this Application for a Stay of
Execution be granted.
Respectfully submitted,

/s/ Victor J. Abreu
Victor J. Abreu*
Katherine Thompson
Peter Williams
Assistant Federal Defenders
Federal Community Defender Office
for the Eastern District of Pennsylvania
601 Walnut Street, Suite 545 West
Philadelphia, PA 19106
(215) 928-0520
victor_abreu@fd.org
*Counsel of record for Petitioner, and
Member of the Bar of the Supreme Court

Dated: December 2, 2020

8

